CERTIFICATE OF SERVICE
No. 20-1215
North American Meat Institute,
Petitioner,
v.
Rob Bonta, et al.,
Respondents.
I, Paul J. Zidlicky, do hereby certify that, on this seventh day of June, 2021, I
caused one copy and an electronic copy of the Reply Brief For Petitioner in the
foregoing case to be served by first class mail, postage prepaid, and by email, on the
following parties:
SAMUEL THOMAS HARBOURT
California Department of Justice,
Office of the Solicitor General
455 Golden Gate Ave, Suite 11000
San Francisco, CA 94102
(415) 510-3919
Samuel.Harbourt@doj.ca.gov

BRUCE ANDREW WAGMAN
Riley Safer Holmes & Cancila LLP
456 Montgomery Street
16th Floor
San Francisco, CA 94104
(415) 275-8550
bwagman@rshc-law.com

Counsel for Respondents Rob Bonta,
in his official capacity as Attorney
General of California; Karen Ross, in
her official capacity as Secretary of
the California Department of Food
and Agriculture; and Sonia Angell,
Director of the California
Department of Public Health

Counsel for Respondents The Humane
Society of the United States; Animal
Legal Defense Fund; Animal Equality;
The Humane League; Farm
Sanctuary; Compassion in World
Farming USA; and Animal Outlook
(f/k/a Compassion Over Killing)
/s/ Paul J. Zidlicky
PAUL J. ZIDLICKY
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, DC 20005
(202) 736-8000

